'/
                                                                            I f   '



                                                                   t                   haTIONAL SCIENCE FOU-N-DATION
                                                      :*y              ,;                WASHINGTON, D.C. 20550




                                   Office of
                               Inspector General



I
i.                              -CLOSEOUT MEMORANDUM


11
                                                              DATE: April 9, 1991

        ---   -~
               -   ... -..-.         REPLY
                               -- -- -  TO
                                   ---..-.--.-.-.--p----A--.-..-                          .   --           ...   .             ..         ~.    - -
                                                                                                                                               ~.     -
                                   ATTN OF:                                                        , Special Agent, Investigations Unit



                                                                            TO: File
 /I


    I
                                On March 15, 1991, we were notified that in August 1987,
                                                   Internal Auditors discovered that a univer
                                                  d an estimated $30,000 by submitting falsified
                                                                                                                                    =-!
                                expense reimbursement requests.    The matter was turned over to
                                the
                                University
                                -police
                                                   Off
                                                Police and the university terminated the clerk.
                                                icials are not aware of the outcome of the
                                                  action.
                                                   nternal auditors determined that $11,108.26 of
                                                   ,000 embezzled was directly charged to NSF
                                grants. The internal auditors also determined that $5723.92 of
                                indirect or overhead charges were related to the NSF grant. The
                                University established an account to repay all lost federal
                                funds and implemented new internal controls to protect against
                                similar embezzlement schemes. On April 2, 1991, NSF received a
                                check from the university totaling $16,832.18, which covered the
                                direct and indirect charges. DCAA, the cognizant Federal Agency,
                                is reviewing the internal audit to ensure all federal funds were
                                recovered.




                                 This file is closed.
